            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
   COMMONWEALTH OF PUERTO RICO
     DEPARTMENT OF THE FAMILY
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2003

      March 2007   A-77-07-00010




  MANAGEMENT
ADVISORY REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                     SOCIAL SECURITY
MEMORANDUM


Date:   March 30, 2007                                                     Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From:   Inspector General

Subject:   Management Advisory Report: Single Audit of the Commonwealth of Puerto Rico,
           Department of the Family, for the Fiscal Year Ended June 30, 2003 (A-77-07-00010)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the Commonwealth of Puerto Rico, Department of the Family (DoF), for the
        Fiscal Year ended June 30, 2003. Our objective was to report internal control
        weaknesses, noncompliance issues, and unallowable costs identified in the single audit
        to SSA for resolution action.

        Ernst & Young LLP performed the audit. The Department of Health and Human
        Services (HHS) desk review concluded that the audit met Federal requirements. In
        reporting the results of the single audit, we relied entirely on the internal control and
        compliance work performed by Ernst & Young and the reviews performed by HHS. We
        conducted our review in accordance with the Quality Standards for Inspections issued
        by the President’s Council on Integrity and Efficiency.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Commonwealth of Puerto Rico Disability Determination Services (DDS) performs
        disability determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. The DDS is reimbursed for 100 percent of allowable costs. The
        Puerto Rico DoF is the Puerto Rico DDS’ parent agency.
Page 2 – Candace Skurnik

The single audit reported that:

1. Accurate inventory records for acquisitions and physical location of property
   purchased with Federal funds were not maintained (Attachment A, pages 1 and 2).
   The corrective action plan indicated that an inventory control software program has
   been acquired and two employees have been assigned responsibility for inventory
   control (Attachment A, page 2).

    The Office of the Inspector General (OIG) conducted an audit of Administrative
    Costs Claimed by the Puerto Rico DDS that covered the same time period as this
    single audit. 1 The OIG audit identified that the maintenance of inventory did not
    comply with SSA’s Program Operations Manual System and recommended
    corrective action. Therefore, we are not making a recommendation related to this
    single audit finding.

2. Documentation to support disbursements for the DI program totaling $207,302 was
   not maintained (Attachment A, pages 3 and 4). The corrective action plan indicated
   that the Finance Director issued instructions regarding document retention
   (Attachment A, page 4).

    The OIG’s audit reviewed disbursements based on a statistician’s approved plan
    and found them to be supported by documentation. However, we believe a
    recommendation on this finding is warranted since the disbursements reviewed as
    part of this single audit are most likely different than the disbursements reviewed by
    the OIG.

3. Documentation to support payroll expenditures could not be located for four
   employees. In addition, payroll costs were charged to the incorrect account for two
   employees (Attachment A, pages 5 and 6). The corrective action plan indicated that
   a plan was developed by the Human Resources Department to address this finding
   (Attachment A, page 6).

    The OIG’s audit reviewed payroll costs claimed by the Puerto Rico DDS based on a
    statistician’s approved plan and found the expenditures to be allowable and
    adequately supported. However, we believe a recommendation on this finding is
    warranted since the payroll expenditures reviewed as part of this single audit are
    most likely different than those reviewed by the OIG.




1
 Administrative Costs Claimed by the Commonwealth of Puerto Rico Disability Determination Program
(A-06-06-16117) March 26, 2007.
Page 3 – Candace Skurnik

4. Information reported on the State Agency Report of Obligations for SSA Disability
   Programs (SSA-4513) did not reconcile with the DoF’s records. Specifically,
   amounts reported on 11 SSA-4513 reports differed from DoF’s accounting records.
   In addition, for 1 quarter, an incorrect indirect cost rate was included in the report,
   resulting in questioned cost of $662,771 (Attachment A, pages 7 and 8). The DoF
   did not agree with this finding and stated that the reports were prepared accurately
   and timely (Attachment A, page 8).

    The OIG’s Administrative Cost Audit included SSA-4513 reconciliations of costs
    claimed by the Puerto Rico DDS and did not identify any problems. Furthermore,
    the OIG audit determined that the indirect costs claimed by the Puerto Rico DDS
    were allowable. Therefore, we are not making a recommendation related to this
    single audit finding.

We recommend SSA:

1. Determine if the $207,302 charged to SSA was for allowable expenditures and
   collect any unallowable costs.

2. Remind the DDS to maintain adequate documentation to support expenditures and
   payroll costs charged to SSA programs.

3. Determine if unallowable payroll costs were charged to SSA and collect any
   unallowable costs.

The single audit also disclosed the following findings that may impact DDS operations
although they were not specifically identified to SSA. Some of these findings were
reported for several DoF programs indicating pervasive problems within DoF. If the
finding was reported in more than one DoF program, we identify the number of times
the finding was reported in parenthesis and only attached one finding as an example. I
am bringing these matters to your attention as they represent potentially serious service
delivery and financial control problems for the Agency.

•   DoF has significant deficiencies (4) in its internal control structure, accounting and
    financial management systems, budgetary controls and financial reporting practices
    (Attachment B, pages 1 through 5).

•   The lack of an overall control system resulted in inadequate controls over record
    retention and the filing of required documents (Attachment B, pages 6 and 7).

•   DoF did not submit Federal reports (5) timely and accurately (Attachment B,
    pages 8 and 9).

•   Payment vouchers were incomplete (7) (Attachment B, pages 10 and 11).
Page 4 – Candace Skurnik

•   Supporting documentation for employee files (6) was not retained for expenditures
    charged to Federal funds (Attachment B, pages 12, 13 and 14).

•   Property and equipment management procedures (6) were not adequate
    (Attachment B, pages 15 and 16).

•   DoF paid for obligations (2) after the allowed time period (Attachment B,
    pages 17 and 18).

•   Documents to support compliance with procurement, suspension and debarment
    requirements (3) were not located (Attachment B, pages 19 and 20).

•   DoF made Federal disbursements (2) for unallowed activities (Attachment B,
    pages 21 and 22).

•   Effective controls were lacking (8) over the cash management area (Attachment B,
    page 23).

Please send copies of the final Audit Clearance Document to Shannon Agee and
Rona Lawson. If you have any questions contact Shannon Agee at (816) 936-5590.




                                                Patrick P. O’Carroll, Jr.

Attachments
Attachment A
  Page 1 of 8
Attachment A
  Page 2 of 8
    Attachment A
      Page 3 of 8




\
Attachment A
  Page 4 of 8
Attachment A
  Page 5 of 8
Attachment A
  Page 6 of 8
Attachment A
  Page 7 of 8
Attachment B
Page 1 of 23
Attachment B
Page 2 of 23
Attachment B
Page 3 of 23
Attachment B
Page 4 of 23
Attachment B
Page 5 of 23
Attachment B
Page 6 of 23
Attachment B
Page 7 of 23
Attachment B
Page 8 of 23
Attachment B
Page 9 of 23
Attachment B
Page 10 of 23
Attachment B
Page 11 of 23
Attachment B
Page 12 of 23
Attachment B
Page 13 of 23
Attachment B
Page 14 of 23
Attachment B
Page 15 of 23
Attachment B
Page 16 of 23
Attachment B
Page 17 of 23
Attachment B
Page 18 of 23
Attachment B
Page 19 of 23
Attachment B
Page 20 of 23
Attachment B
Page 21 of 23
Attachment B
Page 22 of 23
Attachment B
Page 23 of 23
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
